HHS/OIG-Audit--"Consolidated Report-Audits of Migrant and Seasonal
Farmworker Program Discretionary Grants Awarded by Office of Community Services,
(A-09-91-00086)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Consolidated Report-Audits of Migrant and Seasonal Farmworker Program
Discretionary Grants Awarded by Office of Community Services," (A-09-91-00086)
June 30, 1992
Complete
Text of Report is available in PDF format (1.92 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report summarizes the results of audits of Migrant and Seasonal
Farmworker (MSF) program discretionary grants awarded by the Office of Community
Services (OCS). Audits of 8 grantees involving 10 grants disclosed that seven
of the eight grantees did not fully accomplish one or more of their program
objectives; six grantees either: (i) claimed costs that were not allowable
for reimbursement, (ii) could not document compliance with the matching requirements
of the grants, (iii) did not report grant related income, or (iv) did not return
unexpended grant funds; three grantees did not comply with reporting requirements;
and seven grantees had other management or operating deficiencies. We recommended
that Administration for Children and Families (ACF) require OCS to: (1) collect
unallowable costs claimed by grantees; (2) monitor progress reports submitted
by grantees to ensure that they address major objectives of the grants; (3)
require project officers to take appropriate action when satisfactory progress
is not being made to accomplish project objectives; and (4) monitor financial
reporting to ensure that required reports are submitted in a timely manner,
and unexpended funds are returned. The ACF agreed with our findings and recommendations.